                                   AR 07-002


     Office of Inspector General




      REVIEW OF THE FTC
PURCHASE CHARGE CARD PROGRAM




            March 2007
                                                     UNITED STATES OF AMERICA
                                                 FEDERAL TRADE COMMISSION
                                                      WASHINGTON, D.C. 20580



Office of Inspector General




                                                           March 12, 2007


TO:                    Charles Schneider
                       Executive Director

ATTN:                  Steven Fisher
                       Chief Financial Officer

FROM:                  Howard L. Sribnick
                       Inspector General

SUBJECT:               Review of the FTC’s Purchase Charge Card Program


This report presents the results of our audit of the FTC’s purchase charge card program. The
Chief Financial Officer’s written response to the draft report is included as exhibit B with
excerpts and the Office of Inspector General’s (OIG) Position incorporated into the relevant
sections of the report. Your response contained sufficient justification to resolve all
recommendations. These recommendations will be considered closed when supporting
documentation, as discussed in the OIG Position has been provided through the audit liaison.

We appreciate the courtesies and cooperation extended to our staff during this review.




FTC/OIG-A/AR 07-002                                                                       ii
Executive Summary

Results in Brief   The General Services Administration (GSA) purchase charge card
                   (SmartPay) is used to purchase supplies and services in accordance with
                   the Federal Acquisition Regulation (FAR). The purchase charge card is
                   the preferred procurement and payment tool for micro-purchases. As
                   prescribed in FAR 13.2, “micro-purchase” is an acquisition of supplies or
                   services in which the aggregate amount does not exceed $2,500, except in
                   the case of construction where the limit is $2,000. The purchase charge
                   card is used as an ordering and payment mechanism, not a contracting
                   mechanism for purchases above the micro-purchase threshold.

                   To allow agencies the maximum latitude, the GSA SmartPay master
                   contract excludes only a few categories of purchases. They are:

                      •   Long-term rental or lease of land or buildings;
                      •   Travel or travel-related expenses (excluding conference rooms,
                          meeting spaces and local transportation services such as Metro fare
                          cards, subway tokens, etc.); and,
                      •   Cash advances.

                   Although the Financial Management Office (FMO) has a system of
                   internal controls in place and operating, some adjustments are needed to
                   enhance the security of the FTC purchase card program.

                   FMO requires only new purchase charge card holders to complete an on-
                   line tutorial prior to being issued a purchase charge card. FMO does not
                   require supervisors or approving officials to attend agency training, i.e.
                   complete the tutorial. Even though changes occur to the purchase charge
                   card program, there is no further refresher training after initially
                   completing the tutorial.

                   Although the Travel and Transportation Reform Act of 1998, Public Law
                   105-264, §2(a), requires that Federal employees use the travel charge card
                   for all payments of expenses of official government travel, we discovered
                   that the purchase charge card is being used for official government travel.
                   Between the months of November 2005, and July 2006, $23,334 was
                   inappropriately charged on purchase charge cards for government travel.
                   Cardholders and their supervisors/managers said they were not aware of
                   the requirement to use only the travel charge card for official government
                   travel.


FTC/OIG-A/AR 07-002                                                                        iii
                   The Agency/Organization Program Coordinator (A/OPC) has not
                   exercised due diligence in reviewing the card provider’s merchant
                   category codes (MCC) that include goods and services that are not
                   appropriate for a government entity. Some of the inappropriate MCC’s,
                   are for dating/escort services, massage parlors, package stores (beer, wine,
                   and liquor) and membership in clubs (sports, recreation, athletic), country
                   clubs, and private golf courses. With those MCC codes not being
                   restricted, there is a potential for abuse and ultimately embarrassment for
                   the FTC.

                   Except for using the purchase card for official government travel, we did
                   not find any purchases for inappropriate goods or services.

Recommendation
In Brief       We recommend that FMO, update, document, and implement risk
               management controls on the FTC purchase card program (including
               training) consistent with OMB Circular A-123 Appendix B, and with
               Public Law 105-264, §2(a) (1998). We also recommend that the A/OPC
               review the card providers MCC and bar the use of the purchase card for
               those MCC’s for inappropriate goods and services.




FTC/OIG-A/AR 07-002                                                                          iv
Abbreviations Used in This Report


AO                Approving Officials
A/OPC             Agency/Organization Program Coordinator
FAR               Federal Acquisition Regulation
FMO               Financial Management Office
FTC               Federal Trade Commission
GSA               General Services Administration
JWOD              Javits-Wagner-O’Day
OIG               Office of Inspector General
OMB               Office of Management and Budget
IG                Inspector General
MCC               Merchant Category Codes
P.L.              Public Law
TFM               Treasury Financial Manual




FTC/OIG-A/AR 07-002                                         v
Table of Contents

Executive Summary ..................................................................................................................... iii

Abbreviations Used in This Report ............................................................................................. v

Background Scope Objectives and Methodology....................................................................... 1

    Scope .......................................................................................................................................... 1

    Objectives.................................................................................................................................. 2

    Methodology ............................................................................................................................. 2

Findings and Recommendations.................................................................................................. 3

    FTC Purchase Card Program System of Internal Controls Needs to be Strengthened.... 3

        Finding 1  Current Merchant Category Code’s Allow the Purchase of
                   Inappropriate Goods or Services ................................................................... 3
                       Recommendation 1 ................................................................................ 5
                       Recommendation 2 ................................................................................ 6
     Finding 2     Purchase Charge Card Used for Official Government Travel ...................... 7
                       Recommendation 3 ................................................................................ 9
                       Recommendation 4 ................................................................................ 9
     Finding 3     Purchase Charge Card Training is not Effective ......................................... 10
                       Recommendation 5 .............................................................................. 12
Exhibit A – Summary of Monetary Results ............................................................................. 13
Exhibit B – Agency Response..................................................................................................... 14




FTC/OIG-A/AR 07-002                                                                                                                                vi
Background Scope Objectives and Methodology
Background                    Government purchase charge card usage provides streamlined, best
                              practice processes that are consistent with private industry standards. The
                              administrative cost savings of processing charge card transactions instead
                              of paper-based transactions drives card use and merchant acceptance.
                              Given its benefits, during the past decade the program has expanded with
                              the support of the executive and legislative branches as well as the
                              merchant community.

                              Use of purchase cards by approximately 392,500 cardholders government-
                              wide ensures timely payment to merchants who do business with the
                              Federal government. Merchants are paid for credit card transactions within
                              48 hours of submitting the transaction to the card network.

                              The purchase card is use as the procurement and payment tool for micro-
                              purchases is defined in Federal Acquisition Regulation (FAR) 13.2.
                              Micro-purchase means an acquisition of supplies or services in which the
                              aggregate amount does not exceed $2,500, except that the limit is $2,000
                              in the case of construction. 1

                              To allow agencies the maximum latitude, the contract excludes only a few
                              categories of purchases, such as:

                                   •    long-term rental or lease of land or buildings,
                                   •    travel or travel related expenses (excluding conference rooms,
                                        meeting spaces, and local transportation services such as Metro
                                        fare cards, subway tokens, etc.) and,
                                   •    cash advances.

                              Intentional use of the purchase card for other than official government
                              transactions constitutes misuse and, depending on the facts, may constitute
                              fraud. The employing agency of a cardholder who misuses the card or who
                              participates in fraud may cancel the purchase card and take disciplinary
                              action against the employee, as appropriate. In the case of card misuse, the
                              employee will be held personally liable to the government for any
                              unauthorized (non-government) transaction.

Scope                         The scope of our review was purchase charge card regulations, internal
                              controls, and use during FY2005 and FY2006.


1
    For purchases above the micro-purchase threshold, the purchase card may be used as an ordering and payment
    mechanism, not a contracting mechanism. When used as an ordering and payment mechanism, contractors may bill
    against the card. When the order is delivered, the contractor bills the purchase card account instead of issuing an invoice
    directly to the agency.
FTC/OIG-A/AR 07-002                                                                                                    Page 1
Objectives        The objective of our review was to determine how the FTC Purchase Card
                  Program is managed, to whom purchase cards are issued, and, whether
                  internal controls are sufficient to detect and/or prevent fraudulent use of
                  the purchase card.

Methodology       We reviewed regulations, policies, and procedures the FTC uses to
                  manage the purchase charge card program. We reviewed monthly
                  purchase charge card statements for purchases made between the months
                  of September 2005, through August 2006. In addition, we reviewed
                  administrative and financial records, and interviewed selected personnel.

                  We conducted this audit in accordance with Government Auditing
                  Standards issued by the Comptroller General of the United States.
                  Accordingly, the audit included such tests of program and accounting
                  records as considered necessary to meet the audit objectives.

                  The fieldwork for this audit was conducted during the months of
                  December 2006, and January 2007.




FTC/OIG-A/AR 07-002                                                                   Page 2
Findings and Recommendations
FTC Purchase Card Program System of Internal Controls Needs to be
Strengthened

            The Office of Management and Budget (OMB), issued OMB Circular A-123
            Appendix B (Revised 2006), as guidance to maximize benefits when using
            government charge cards to pay for goods and services in support of official
            Federal missions. Agencies have an ongoing requirement to evaluate the
            effectiveness of the actions taken to comply with the requirements of this
            guidance.

            For example, pursuant to OMB Circular A-123 Appendix B agencies must
            periodically evaluate the effectiveness of the controls put in place to mitigate the
            risks of payment delinquencies and charge card misuse. All program participants,
            including cardholders and charge card managers (including Agency/Organization
            Program Coordinator (A/OPC)), Approving Officials (AO), and other
            accountable/billing officials), must be trained in charge card management.




Finding 1   Current Merchant Category Code’s                   Allow    the    Purchase      of
            Inappropriate Goods or Services

            Citibank, the issuer of the government purchase card, has established a table of
            merchant category codes (MCC’s) for which the card may be used. This table
            includes MCC’s for goods and services that are inappropriate for a government
            agency. However, the entire MCC table is used as a guide for approving agency
            purchases. This has occurred because the A/OPC has not reviewed and restricted
            the use of inappropriate MCC’s. As a result, many of the MCC’s associated with
            the FTC’s purchase charge card allow cardholders to use government funds to
            purchase inappropriate goods or services, including purchases that would violate
            federal laws and policies.

            A/OPC’s also must exercise due diligence in reviewing MCC’s in use and then
            restricting the use of those that are not appropriate. A sample of MCC’s that are
            currently valid for purchases with the FTC purchase charge card, but which
            appear inappropriate on their face, are listed below in Table 1.




FTC/OIG-A/AR 07-002                                                                      Page 3
   MCC
  CODES    DESCRIPTION
    3000   Airlines, Air Carriers
    3351   Car Rental Agencies
    3501   Hotels, Motels, Resorts
    4011   Railroads
    4112   Passenger Railways
    4119   Ambulance Services
    4121   Taxicabs/Limousines
    4411   Cruise Lines
    4511   Airlines, Air Carriers
    4722   Travel Agencies, Tour Operators
    4723   Package Tour Operators - Germany Only
    4761   Transportation/Travel
    4829   Wires, Money Orders
    5193   Florists Supplies, Flowers
    5309   Duty Free Shops
    5681   Furriers and Fur Shops
    5718   Fireplace Accessory Stores
           Drinking Places (Alcoholic Beverages) –Bars, Taverns, Nightclubs, Cocktail Lounges, And
    5813   Discotheques
    5921   Package Stores - Beer, Wine, and Liquor
    5932   Antique Stores - Sales, Repairs and Restoration Services
    5933   Pawn Shops
    5937   Antique Reproductions
    5944   Jewelry Stores
    5960   Direct Marketing - Insurance Service
    5962   Direct Marketing -- Travel-Related Arrangement Services
    5972   Stamp and Coin Stores
    5973   Religious Goods Stores
    5977   Cosmetic Stores
    5992   Florist
    5993   Cigar Stores and Stands
    5996   Swimming Pools - Sales and Service
    6010   Manual Cash Disbursements
    6011   Automated Cash Disbursements
    6012   Financial Institution - Merchandise and Services
    6300   Insurance Sales, Underwriting, and Premiums
    7011   Lodging –Hotels, Motels, Resorts, Central Reservation
    7273   Dating/Escort Services
    7276   Tax Preparation Services
    7297   Massage Parlors
    7832   Motion Picture Theaters
    7911   Dance Halls

    7941   Commercial Sports, Professional Sports Club, Athletic Fields, and Sports Promoters
    7992   Public Golf Courses
    7996   Amusement Parks, Circuses, Carnivals & Fortune Tellers



FTC/OIG-A/AR 07-002                                                                                  Page 4
     MCC
    CODES       DESCRIPTION

      7997      Membership Clubs (Sports, Recreation, Athletic), Country Clubs, and Private Golf Courses
      8351      Child Care Services
      8398      Charitable Organizations
      8641      Civic, Social, And Fraternal Associations
      8651      Political Organizations
      8675      Automobile Associations
      8699      Membership Organizations –Not Elsewhere Classified
      9211      Court Costs
      9222      Fines
      9311      Tax Payments
                                                          Table 1

                   The A/OPC should restrict the use of the MCC’s that include inappropriate or
                   unlawful expenditures. If a cardholder used their purchase charge card to buy
                   jewelry or contribute funds to a political organization, it would seriously damage
                   the agency’s image. In fact, some of the types of expenditures included in the
                   MCC, such as the use of the card to make a political contribution, would violate
                   federal criminal law, see, 18 U.S.C. §1913. 2

Recommendation 1

                   The OIG recommends that FMO update, document, and implement risk
                   management controls on the FTC purchase card program by April 30, 2007.

                   Agency Response

                   We concur in principle with the recommendation that the FTC’s controls,
                   policies, and practices must be consistent with OMB Circular A-123 and that
                   improvements to existing purchase card risk management controls can be made.
                   However, purchase card risk management controls and policies have been
                   developed and are published in the FTC Administrative manual. Additionally,
                   although the implementing procedures have not been thoroughly documented,
                   they have been placed into operation as briefly described in the attached matrix.

                   OIG Position

                   The OIG concurs with the Agency Response in Recommendation 1. To consider
                   this recommendation closed, FMO needs to provide records that the procedures
                   have been strengthened, and thoroughly documented.
2
  18 U.S.C. §1913 provides: “No part of the money appropriated by any enactment of Congress shall, in the absence of
express authorization by Congress, be used directly or indirectly to pay for any personal service, advertisement, telegram,
telephone, letter, printed or written matter, or other device, intended or designed to influence in any manner a Member of
Congress, a jurisdiction, or an official of any government, to favor, adopt, or oppose, by vote or otherwise, any legislation,
law, ratification, policy, or appropriation, whether before or after the introduction of any bill, measure, or resolution
proposing such legislation, law, ratification, policy, or appropriation…”
FTC/OIG-A/AR 07-002                                                                                                   Page 5
Recommendation 2

            The OIG recommends that FMO review all MCC’s currently in use and restrict
            the use of those that are not appropriate (in addition to the MCC’s in Table 1) by
            the end of FY2007.

            Agency Response

            We concur with this recommendation. As described below, FMO has taken
            corrective action to restrict the inappropriate Merchant Category Codes identified
            in this report.

            On February 16, the Chief Acquisition Officer (CAO) instructed the purchase
            card vendor, (Citibank) to restrict the use of the MCC codes listed in Table 1 of
            this report with the exception of MCC 3501 and 9211, which were determined to
            be required for FTC business needs. MCC 9211, Court Costs may be legitimately
            used by FTC attorneys to pay for copying or other legitimate courthouse expenses
            that can occur during legal proceedings. The use of MCC 3501, Hotels, Motels,
            Resorts is necessary when reserving conference rooms at hotels. However, to
            discourage and limit the possibility of purchase card misuse FMO has updated
            the FTC administrative manual to prominently and specifically state that use of
            the purchase card for travel purposes such as hotel rooms is prohibited (Chapter 2:
            Section 310 - Credit Cards). Additionally, except for a few individuals who most
            frequently rent conference rooms, the CAO has advised Citibank to restrict the
            use of MCC 3501 for all remaining cardholders. The Acquisition branch within
            FMO is currently conducting a comprehensive review of all MCC currently in use
            and will remove any additional codes deemed inappropriate.

            OIG Position

            OIG agrees with your decision to restrict the MCC’s listed in Table 1 of the report
            and with excepting from this restriction MCC 9211 (Court Costs). The OIG also
            commends your commitment to conduct a comprehensive review of all MCC’s
            currently in use.

            To consider this recommendation closed; (1) provide documentation of the
            actions taken to restrict expenditures under unauthorized MCC’s, including the
            response of the purchase card issuer. (2) OIG will review monthly purchase card
            statements in six months to verify that the purchase card has not used for travel
            related expenses.




FTC/OIG-A/AR 07-002                                                                     Page 6
Finding 2   Purchase Charge Card Used for Official Government Travel

            The Travel and Transportation Reform Act of 1998, Public Law (P.L.) 105-264,
            §2(a) (1998), requires that Federal employees use the travel charge card for all
            payments of expenses of official government travel

            Contrary to this provision, government purchase charge cards are being used by
            agency employee’s for official government related travel services. This has
            occurred because of the lack of adequate internal controls, lack of an internal
            audit process and a lack of supervisory review of purchases made with the
            purchase card.

            As noted above, travel and travel related expenses are one of the few categories of
            expenses expressly prohibited under the purchase card program. Yet, our review
            of monthly purchase charge card statements revealed that $23,334 was
            inappropriately spent on official government travel during the nine (9) month
            interval of November 2005, and July 2006. Table 2 shows those travel related
            costs.




FTC/OIG-A/AR 07-002                                                                     Page 7
               Transaction            Reference Number         Date                  Cost
   Delta Airlines 0061542908638          5583152592229       November-05     $     612.89
   Hyatt Regency Washington DC           1004095065243       November-05     $     996.86
   Hyatt Regency Washington DC           1004095065250       November-05     $     992.73
   Hyatt Regency Washington DC           1004095065268       November-05     $       8.26
   Austrian Air 2571543412110            7753900146193       November-05     $   2,207.72
   United Airlines 0161544066686         3830564416368       November-05     $   2,820.49
   The Carlton Hotel New York              400002111897      December-05     $     399.18
   The Carlton Hotel New York              400002111913      December-05     $     399.18
   Park Hyatt Baku                       5000741980617        February-06    $     131.17
   Park Hyatt Baku                       5000742058868        February-06    $      87.97
   Lufthansa 2201556184174               9109612094908            April-06   $   3,093.17
   Hyatt Regency Baku                         874637501           April-06   $   1,248.23
   Hyatt Regency Baku                         874748258           April-06   $   1,429.94
   Hyatt Regency Baku                    1000876539803             May-06    $     256.54
   Hyatt Regency Baku                    1000876616593             May-06    $     224.73
   LOT (Polish Airline)                  4185000007826            June-06    $     575.28
   NAtional TV                           5002978884944            June-06    $     335.83
   Austrian Air 2577601392178            4753900407821            June-06    $   1,049.07
   Lufthansa 2207601392180               5165671919402            June-06    $     978.80
   Park Hyatt Baku                       3000982035121             July-06   $   1,727.47
   Park Hyatt Baku                       4000982560879             July-06   $   1,511.40
   Hyatt Hotels Phoenix, AZ              4004086150615       November-05     $     127.29
   Marriott 33769 JW Washington DC       5004126429433       December-05     $     190.07
   Clarion Resort Pinewood Park          2000214868268         January-06    $     256.52
   Clarion Resort Pinewood Park               338172811        January-06    $     258.02
   Hyatt Regency Washington DC           4004091214676        February-06    $     206.10
   Hyatt Regency Washington DC           4004091214684        February-06    $     206.10
   Hilton Hotels La Jolla, CA            8040300057085            April-06   $     400.00
   Club Quarters Wacker at Michigan      9513802137493             May-06    $      34.62
   Palmer House Hilton Chicago           5040300148137             May-06    $     155.79
   Palmer House Hilton Chicago           5040300148145             May-06    $     155.79
   Hilton Hotels Washington, DC          1040300047926             July-06   $     180.00
   Avalon Inn, Warren, OH                3003300095128             July-06   $      77.04

    Total for Travel Related Purchases:                                           $23,334.25
                                                   Table 2

              One purchase charge card holder and his supervisor said they were not aware of
              Travel and Transportation Reform Act of 1998 and the requirement that
              employees use the travel charge card for all payments of expenses of official
              government travel.




FTC/OIG-A/AR 07-002                                                                            Page 8
Recommendation 3

            The OIG recommends that by the end of FY 2007, FMO include policies and
            guidelines within the purchase card program that are consistent with The Travel
            and Transportation Reform Act of 1998 (P.L. 105-264, §2(a)).

            Agency Response

            On February 20, the purchase card program policies published FTC
            administrative manual were revised to prominently and specifically state that use
            of the purchase card for travel related expenses is prohibited. Also, on February
            16 the CAO issued a memo to all purchase cardholders and approving officials to
            notify them of the restrictions placed on the purchase card regarding travel
            expenses. This policy notice was also published on the FTC Daily, the FTC’s
            daily newsletter. The CAO will continue to monitor cardholder compliance in this
            area. Additionally, a notification to all employees regarding the policy pursuant to
            the Travel and Transportation Reform Act of 1968[SIC] (P.L. 105-264) was last
            distributed to all employees in an official annual Notice to the Staff on January 9,
            2006.

            OIG Position

            The OIG agrees with the updating of Administrative Manual Chapter 2, Section
            310, to include travel-related expenses under Subchapter 7A Prohibited
            Purchases. Prior to making this change the Agency’s policies for the purchase
            card was inconsistent P.L. 105-264, §2(a), because purchase card policies did not
            address the prohibition of using the purchase card for travel related expenses.

            The OIG considers this recommendation closed. The updated policy has been
            published in the Administrative Manual.

Recommendation 4

            The OIG recommends that by the end of FY2007, FMO develop and institute an
            internal audit system to conduct a monthly audit of all purchase charge card
            transactions in order to detect and prevent the misuse of the purchase charge card.

            Agency Response

            FMO agrees in principle with recommendation 4, that there should be a monthly
            review process subjecting all purchase card transactions to review. FMO believes
            that the current policy and procedures (described below) are adequate but that
            evidence of compliance can be better documented. In the future FMO will require
            the A/OPC to document the review (Tier 3 below) of all purchase card
            transactions and maintain documentation evidencing the review.
FTC/OIG-A/AR 07-002                                                                      Page 9
            OIG Position

            OIG disagrees that the current policy and procedures are adequate. The current
            process for reviewing purchase card transactions is ineffective in that it did not
            detect the inappropriate use of the purchase card for $23,334 of travel related
            expenses during an eight (8) month period.

            OIG will consider this recommendation closed upon being provided
            documentation to show that FMO has established adequate review processes
            including Tier 3 reviews by the A/OPC.

Finding 3   Purchase Charge Card Training is not Effective

            The FTC Financial Management Office (FMO) requires new purchase charge
            card holders to complete an on-line tutorial prior to being issued a purchase
            charge card. FMO does not require supervisors or approving officials to attend
            agency training, i.e. complete the tutorial. Even though changes occur to the
            purchase charge card program, there is no further refresher training after initially
            completing the tutorial.

            It is commendable that FMO put together the beginning steps of a training
            program, but the tutorial does not provide adequate direction for the approved
            uses and limitations on the types of purchases, and dollar amounts. For instance,
            the tutorial does not specify that the purchase charge card cannot be used for
            official government travel, cash advances, or long-term rental/lease of land or
            buildings.

            The training tutorial for new purchase cardholders does not adequately instruct
            new purchase cardholders in their responsibilities. This occurred because FMO
            has not developed and implemented a training program consistent with OMB
            Circular A-123 Appendix B or the Treasury Financial Manual. As a result, some
            cardholders and their supervisors are not aware of their responsibilities, which
            have resulted in misuse of purchase cards.

            In keeping with OMB Circular A-123 Appendix B, each agency must provide
            training on charge card management. Training is important because it is vital that
            charge card managers and cardholders understand their roles and responsibilities
            in order for charge card programs to be effectively implemented.

            OMB Circular A-123 Appendix B details specific training requirements for the
            purchase charge card:

               •   Cardholder - Training for cardholders of the government purchase card
                   must provide general information on how to use a charge card. It must
FTC/OIG-A/AR 07-002                                                                     Page 10
                   familiarize the cardholders with Federal procurement laws and
                   regulations, agency policies, and proper card use. Training requirements
                   must be consistent with the level of responsibility or spending authority
                   the cardholder will have.

               •   AOs or Certifying Officials - Training in Federal acquisition, applicable
                   financial policies and regulations, and AO responsibilities are required
                   prior to assuming the AO responsibilities. AOs must also receive the same
                   training as the cardholders. The AO (typically a supervisor) ensures that
                   the purchase card is used properly. The AO also authorizes cardholder
                   purchases (for official use only), ensures that the statements are reconciled
                   and submitted to the designated billing office in a timely manner.

            Agency managers are responsible for ensuring that cardholders follow the
            mandatory source requirements established in Part 8 of the Federal Acquisition
            Regulation (FAR) (Required Sources of Supplies and Services.) For example, the
            Javits-Wagner-O’Day (JWOD) Act requires the government to purchase certain
            supplies or services from JWOD participating non-profit agencies, if they are
            available within the period required. Cardholder training and oversight activities
            should focus on ensuring that cardholders meet the requirements established in
            FAR 8.704. The list of priorities is as follows: Supplies - (1) Federal Prison
            Industries, Inc. (41 U.S.C. 48), (2) JWOD participating non-profit agencies, and
            (3) Commercial sources; for Services – (1) JWOD participating non-profit
            agencies and (2) Federal Prison Industries, Inc., or commercial sources.

            The Treasury Financial Manual (TFM) Volume 1, Part 4, Chapter 4500,
            §4535.20, also requires training for purchase cardholders, AO’s, and other
            employees, such as those in the designated billing office.

            During our review, we found that some cardholders indicated they had not
            received training on the proper use of their purchase card. As stated above, a
            charge card holder and his supervisor said they were not aware of the requirement
            that employees use the travel charge card for all payments of expenses of official
            government travel. In fact, the supervisor said they had used the purchase card for
            government travel since 1992.

            The current FMO tutorial is a good source of information on how to challenge
            billing errors, and other administrative issues. However, the tutorial does not
            provide in-depth instruction to new cardholders or their supervisors on the
            procedures to safeguard the purchase card, not to use the purchase card for official
            government travel, and not obtain cash advances. In addition, inappropriate
            purchases with the purchase card are not covered in the tutorial.

            The Contracting Officers Technical Representative tutorial is an excellent
            program and would serve as an example for developing a new purchase card-
            training program.
FTC/OIG-A/AR 07-002                                                                     Page 11
Recommendation 5

            The OIG recommends that by the end of FY2007, FMO revise and implement a
            training program that is consistent with the requirements in OMB Circular A-123
            Appendix B and TFM Volume 1, Part 4, Chapter 4500.

            Agency Response

            We concur with this recommendation. Per Chapter 2 Section 310 of the
            Administrative manual, the FTC currently requires all cardholders to complete a
            training tutorial prior to issuance of a purchase card. However, the FTC agrees
            that the training program can be improved to make it more consistent with the
            requirements in OMB Circular A-123 Appendix B and TFM Volume 1, Part 4,
            Chapter 4500. Therefore, based on the OIG recommendation, all current and
            future FTC purchase cardholders, and Authorizing Officials will be required to
            complete GSA SmartPay on-line training available on the GSA website. This
            training will be required as a condition to obtain a new purchase card, maintain
            custody of an existing purchase card, and to maintain status as an Approving
            Official. This training will also be required on an annual basis as refresher
            training. The A/OPC will monitor the training program. Proof of successful
            completion of this training will be the certificate of completion that is available
            for printing at the end of the course. Purchase cardholders and Authorizing
            Officials will be responsible to take the training and to send copies of the training
            certificate to the A/OPC.

            The CAO has disseminated to all new and current purchase cardholders and
            Authorizing Officials, information to reflect the new GSA SmartPay on-line
            training requirement.

            OIG Position

            OIG agrees and considers this recommendation closed.




FTC/OIG-A/AR 07-002                                                                      Page 12
Exhibit A – Summary of Monetary Results
                                                                  Exhibit A – Page 1 of 1


                 Recommendation
Finding Number       Number          Description      Amount           Category
                                  Purchase charge
                                  card misused for
                                  official                        Questioned Costs
                                  government                      – No Recovery
      2                3,4        travel             $23,334.25   Recommended
                      Total:                         $23,334.25




FTC/OIG-A/AR 07-002                                                            Page 13
Exhibit B – Agency Response
                                                                                Exhibit B – Page 1 of 5



                                      March 8, 2007


To:            Howard Sribnick
               Inspector General

From:          Steven Fisher
               Chief Financial Officer

Subject:       FMO responses to Discussion Draft Report AR 07-002 – Review of the
               FTC’s Purchase Charge Card Program


We appreciate the opportunity to review and respond to the findings and recommendations
contained in the draft report Review of the FTC's Purchase Charge Card Program (AR 07-002).

The report identifies opportunities in which the purchase charge card program can be improved,
yet also confirms the overall control environment was very effective in preventing incidents of
fraud, waste and abuse since all transactions examined were found to be legitimate and necessary
expenditures for official Government business.

The Financial Management Office (FMO) generally concurs in with the findings and
recommendations contained herein. However, the FMO requests a revision to recommendation 1
to better reflect the positive controls currently in place and that incorporates our response which
follows.

My staff and I are available at your convenience for further discussion as appropriate.




FTC/OIG-A/AR 07-002                                                                          Page 14
OIG Recommendation 1

The OIG recommends that FMO develop, publish, and implement risk management controls,
policies, and practices consistent with OMB Circular A-123 Appendix B, within the next six
months.

Management Response:

We concur in principle with the recommendation that the FTC’s controls, policies and practices
must be consistent with OMB Circular A-123 and that improvements to existing purchase card
risk management controls can be made. However, purchase card risk management controls and
policies have been developed and are published in the FTC Administrative manual.
Additionally, although the implementing procedures have not been thoroughly documented, they
have been placed into operation as briefly described in the attached matrix.

To focus our improvement efforts, FMO completed the attached analysis of the risk management
elements specified OMB Circular A-123 Appendix B and a brief description of FTC’s
corresponding controls, policies and or procedures. The analysis demonstrates existing purchase
card risk management controls, policies, and practices are substantially consistent with OMB A-
123 Appendix B, but also revealed certain areas that need to be strengthened. Specifically, FMO
will address this recommendation by ensuring that:

   -   the detailed procedures that are in operation are properly documented;
   -   procedures are periodically evaluated and enhanced;
   -   the purchase card management plan is updated periodically as appropriate;
   -   update the relevant sections of the Administrative Manual to clarify the specific
       responsibilities and procedures regarding administrative and/or disciplinary actions in the
       event inappropriate charges are identified;
   -   cardholders, approving officials and the Agency/Organization Program Coordinator are
       reminded (at least annually) on the agency’s policy with respect to administrative and/or
       disciplinary actions and their roles and responsibilities




FTC/OIG-A/AR 07-002                                                                       Page 15
OIG Recommendation 2

The OIG recommends that FMO review all MCC’s currently in use and restrict the use of those
that are not appropriate (in addition to the MCC’s in Table1) by the end of FY2007.

Management Response:

We concur with this recommendation. As described below, FMO has taken corrective action to
restrict the inappropriate Merchant Category Codes identified in this report.

On February 16, the Chief Acquisition Officer (CAO) instructed the purchase card vendor,
(Citibank) to restrict the use of the MCC codes listed in Table 1 of this report with the exception
of MCC 3501 and 9211 which were determined to be required for FTC business needs. MCC
9211, Court Costs may be legitimately used by FTC attorneys to pay for copying or other
legitimate courthouse expenses that can occur during legal proceedings. The use of MCC 3501,
Hotels, Motels, Resorts is necessary when reserving conference rooms at hotels. However, to
discourage and limit the possibility of purchase card misuse FMO has updated the FTC
administrative manual to prominently and specifically state that use of the purchase card for
travel purposes such as hotel rooms is prohibited (Chapter 2: Section 310 - Credit Cards).
Additionally, except for a few individuals who most frequently rent conference rooms, the CAO
has advised Citibank to restrict the use of MCC 3501 for all remaining cardholders. The
Acquisition branch within FMO is currently conducting a comprehensive review of all MCC
currently in use and will remove any additional codes deemed inappropriate.

OIG Recommendation 3

The OIG recommends that by the end of FY 2007, FMO include policies and guidelines within
the purchase card program that are consistent with The Travel and Transportation Reform Act
of 1998 (P.L. 105-264, §2(a)).

Management Response:

On February 20, the purchase card program policies published FTC administrative manual were
revised to prominently and specifically state that use of the purchase card for travel related
expenses is prohibited. Also, on February 16 the CAO issued a memo to all purchase cardholders
and approving officials to notify them of the restrictions placed on the purchase card regarding
travel expenses. This policy notice was also published on the FTC Daily, the FTC’s daily news
letter. The CAO will continue to monitor cardholder compliance in this area. Additionally, a
notification to all employees regarding the policy pursuant to the Travel and Transportation
Reform Act of 1968 (P.L. 105-264) was last distributed to all employees in an official annual
Notice to the Staff on January 9, 2006.



OIG Recommendation 4


FTC/OIG-A/AR 07-002                                                                         Page 16
The OIG recommends that by the end of FY 2007, FMO develop and institute an internal audit
system to conduct a monthly audit of all purchase charge card transactions in order to detect
and prevent the misuse of the purchase charge card.

Management Response:

FMO agrees in principle with recommendation 4, that there should be a monthly review process
subjecting all purchase card transactions to review. FMO believes that the current policy and
procedures (described below) are adequate but that evidence of compliance can be better
documented. In the future FMO will require the A/OPC to document the review (Tier 3 below)
of all purchase card transactions and maintain documentation evidencing the review.

Per the Administrative Manual Chapter 2 Section 310, cardholders, Approving Officials and the
A/OPC: responsibilities are:

Tier 1 – The cardholder reviews all transactions on the monthly statement and:

       (a) Reconciles the Statement of Account online within five days of each purchase.
       (b) Verifies that the quantity, quality, and prices of items/services furnished by the
       vendor are in accordance with the sales agreement.
       (c) Promptly forwards the billing statement, clearly marked to identify any items in
       dispute, to the organization's approving official.
       (d) Promptly initiates dispute procedures as needed.

Tier 2 – The cardholder’s Approving Official (AO):

       (a) Reviews all credit card purchases within his/her organization for general compliance
       with policy.
       (b) Reviews Statements of Account for appropriate accounting information.
       (c) Brings discrepancies to the immediate attention of the cardholder or, if appropriate,
       the Assistant CFO for Acquisition.
       (d) Completes review of card statements within five days of receipt and forwards to
       Payment Office.
       (e) Recommends the cancellation of a card if a cardholder does not comply with FTC
       policy and procedures.

Additionally, although not currently specified in the Administrative Manual, the A/OPC
performs the following tier 3 oversight activities:

Tier 3 - The A/OPC:

       Reviews all purchase card transactions listed on Citibank’s monthly “Total Business
       Reporting” report for reasonableness based on a combination of factors such as vendor
       name and dollar amount. For any items deemed questionable, the A/OPC then refers the
       questionable charges to the CAO for review. The CAO then contacts the cardholder’s and


FTC/OIG-A/AR 07-002                                                                        Page 17
       or approving official as appropriate to verify the appropriateness of the charge and take
       appropriate action.

OIG Recommendation 5

The OIG recommends that by the end of FY2007, FMO revise and implement a training program
that is consistent with the requirements in OMB Circular A-123 Appendix B and TFM Volume 1,
Part 4, Chapter 4500.

Management Response:

We concur with this recommendation. Per Chapter 2 Section 310 of the Administrative manual,
the FTC currently requires all cardholders to complete a training tutorial prior to issuance of a
purchase card. However, the FTC agrees that the training program can be improved to make it
more consistent with the requirements in OMB Circular A-123 Appendix B and TFM Volume 1,
Part 4, Chapter 4500. Therefore, based on the OIG recommendation, all current and future FTC
purchase cardholders, and Authorizing Officials will be required to complete GSA SmartPay on-
line training available on the GSA website. This training will be required as a condition to
obtain a new purchase card, maintain custody of an existing purchase card, and to maintain status
as an Approving Official. This training will also be required on an annual basis as refresher
training. The A/OPC will monitor the training program. Proof of successful completion of this
training will be the certificate of completion that is available for printing at the end of the course.
Purchase cardholders and Authorizing Officials will be responsible to take the training and to
send copies of the training certificate to the A/OPC.

The CAO has disseminated to all new and current purchase cardholders and Authorizing
Officials, information to reflect the new GSA SmartPay on-line training requirement.




FTC/OIG-A/AR 07-002                                                                            Page 18
Attachment 1

FMO response
OIG Audit AR 07-002



                           FTC/OMB PURCHASE CARD
                RISK MITIGATION POLICIES AND PRACTICES MATRIX
OMB A-123 Appendix B, general                  FTC’s Implementation of OMB A-123
responsibilities of charge card managers       Appendix B requirements:
in implementing risk management
controls, policies, and practices.

Charge card managers are responsible
for:
(1) Implementing the appropriate controls to   The FTC has implemented controls to ensure
ensure compliance with Federal laws,           compliance with Federal laws, Federal and
Federal and agency regulations, and for        agency regulations, and for monitoring the
monitoring program effectiveness               FTC’s charge card program effectiveness. As
                                               described through out this response.

(2) Ensuring that any risk management          The FTC A/OPC ensures that the Commission’s
policies and practices established in the      purchase card management plan controls are
agency’s charge card management plan are       carried out in accordance with the policies and
carried out effectively and that the charge    procedures outlined in the FTC Administrative
card management plan is updated with           Manual Chapter 2, Section 310. Additionally,
enhanced risk management policies and          the A/OPC in consultation with the CAO
practices, as appropriate;                     recently updated our policies and established a
                                               formal charge card Risk Management Plan that
                                               was submitted to OMB on January 31, 2007 as
                                               required.
(3) Ensuring that cardholder statements of     To ensure the FTC cardholders statements of
account and supporting documentation are       account and supporting documentation are
reviewed and utilized to monitor               reviewed and utilized to monitor delinquency,
delinquency, misuse, and other transaction     misuse and other transaction activities the FTC
activities;                                    utilizes a three level methodology to conduct
                                               purchase card transaction reviews. See
                                               management response to recommendation 4.
(4) Ensuring separation of duties among key    As evidenced by the current review, there were
functions such as making purchases,            no instances of inadequate segregation of duties
authorizing purchases and payments,            were found in this area. The FTC
certifying funding, and reviewing and          Administrative manual Section 310.5 outlines
auditing;                                      the separation of duties and responsibilities of
                                               the cardholder, A/OPC, and AO.

FTC/OIG-A/AR 07-002                                                                     Page 19
                         FTC/OMB PURCHASE CARD
              RISK MITIGATION POLICIES AND PRACTICES MATRIX
OMB A-123 Appendix B, general                    FTC’s Implementation of OMB A-123
responsibilities of charge card managers         Appendix B requirements:
in implementing risk management
controls, policies, and practices.

Charge card managers are responsible
for:
(5) Overseeing the establishment and             The A/OPC establishes and maintains the
maintenance of master file/official              master purchase card files which include;
cardholder records, including training,          cardholder records, including training,
appointment, single and monthly purchase         appointment, single and monthly purchase
limits, and related records;                     limits, and related records. These files are
                                                 available for inspection.
(6) Reviewing available data (including the      The FTC utilizes a multiple review process to
use of data mining where appropriate) to         detect instances of delinquency, fraud, and
detect instances of delinquency, fraud, and      misuse. See response to OMB risk
misuse and identify trends and outliers in       management control (3) above.
relevant indicators of charge card program
performance;
(7) Maintaining a policy that ensures that       Although our policy on
administrative and/or disciplinary actions are   administrative/disciplinary actions addresses
initiated in the event cardholders or other      this requirement, based on our review of
program participants fail to meet their          Section 310 of the Administrative Manual we
responsibilities with respect to appropriate     will strengthen and clarify the policy.
use and timely payment of the charge card;
and

(8) Communicating the agency’s policy with       The Commission’s policy with respect to
respect to administrative and/or disciplinary    administrative and/or disciplinary actions to
actions to cardholders, and other program        cardholders and other program participants is
participants, including when referral to an      communicated through the Administrative
agency Office of Inspector General is            Manual and notices from the CAO.
appropriate and/or required.




FTC/OIG-A/AR 07-002                                                                         Page 20
